No. 19-595
IN THE

Supreme Court of the United States
______________

ERIC O’DAY, et al., Individually, On Behalf of
the SunEdison, Inc. Retirement Savings Plan,
Petitioners,
v.
AHMAD CHATILA, et al.,
Respondents.
______________

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
______________

BRIEF IN OPPOSITION FOR RESPONDENTS
AHMAD CHATILA, EMMANUEL HERNANDEZ,
ANTONIO R. ALVAREZ, CLAYTON C. DALEY, JR.,
GEORGANNE C. PROCTOR, STEVEN V. TESORIERE, JAMES B. WILLIAMS, RANDY H. ZWIRN,
THE SUNEDISON RETIREMENT SAVINGS PLAN
INVESTMENT COMMITTEE, BRIAN WUEBBELS,
PHELPS MORRIS, MATTHEW HERZBERG, MATT
MARTIN, AND JAMES WELSH
______________

SARAH A. HEMMENDINGER
SIDLEY AUSTIN LLP
555 California Street
Suite 2000
San Francisco, CA 94104
(415) 772-1200

MARK B. BLOCKER*
CHRISTOPHER K. MEYER
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000
mblocker@sidley.com

Counsel for Respondents Ahmad Chatila, Emmanuel Hernandez, Antonio R. Alvarez, Clayton C. Daley, Jr., Georganne C. Proctor, Steven V. Tesoriere, James B. Williams,
Randy H. Zwirn, The SunEdison Retirement Savings Plan
Investment Committee, Brian Wuebbels, Phelps Morris,
Matthew Herzberg, Matt Martin, and James Welsh

December 6, 2019

*Counsel of Record

QUESTIONS PRESENTED
1. Whether the Second Circuit correctly held that
an ERISA imprudence claim that alleged that 401(k)
plan fiduciaries should have predicted, based on publicly available information, the bankruptcy of a company whose publicly traded stock was a plan investment option, was implausible in light of Fifth Third
Bancorp v. Dudenhoeffer, 134 S. Ct. 2459 (2014),
which held that such claims are generally implausible, and where every court of appeals to judge such
claims has reached a similar conclusion.
2. Whether the Second Circuit correctly held that,
with respect to an ERISA imprudence claim based on
plan fiduciaries’ alleged nonpublic information, petitioners failed to allege that a prudent fiduciary in petitioners’ position could not have concluded that petitioners’ proposed alternative actions, which the complaint acknowledges would have led to “dramatic
losses” to the Plan and its participants, would do
more harm than good, and therefore failed to state a
claim in light of Dudenhoeffer and Amgen Inc. v. Harris, 136 S. Ct. 758 (2016) (per curiam).

(i)

TABLE OF CONTENTS

Page

QUESTIONS PRESENTED .................................

i

TABLE OF AUTHORITIES .................................

v

INTRODUCTION .................................................

1

COUNTERSTATEMENT OF THE CASE ...........

4

A. Factual Background ..................................

4

B. Procedural Background ............................

6

REASONS FOR DENYING THE PETITION .....

10

I. THERE IS NO REASON TO HOLD THE
PETITION FOR PETITIONERS’ PUBLIC
INFORMATION CLAIM BECAUSE JANDER DOES NOT INVOLVE SUCH A
CLAIM, AND THE SECOND CIRCUIT
FAITHFULLY APPLIED THIS COURT’S
PRECEDENT ...............................................

12

A. The Pleading Standard Applicable To
Public Information Claims Is Not At Issue In Jander ............................................

12

B. The Second Circuit Faithfully Applied
This Court’s Precedent And Is In Accord
With All Of The Courts Of Appeals That
Have Addressed Public Information
Claims........................................................

14

1. The Second Circuit Correctly Applied
Dudenhoeffer’s “Special Circumstances” Requirement....................................

14

2. Petitioners Cannot Evade Dudenhoeffer By Characterizing Their Claim As
An “Excessive Risk” Claim ...................

18

(iii)

iv
TABLE OF CONTENTS—continued
II. THE
NONPUBLIC
INFORMATION
CLAIM PROVIDES NO REASON TO
HOLD THE PETITION BECAUSE THE
CLAIMED ALTERNATIVE IN JANDER
WAS DIFFERENT THAN THE ONE PETITIONERS ADVANCE ...............................
CONCLUSION .....................................................

Page

20
29

v
CASES

TABLE OF AUTHORITIES

Page

Amgen Inc. v. Harris, 136 S. Ct. 758
(2016) ................................................ 1, 2, 21, 22
Coburn v. Evercore Tr. Co., 844 F.3d 965
(D.C. Cir. 2016) .................................. 12, 17, 19
Dudenhoeffer v. Fifth Third Bancorp, 692
F.3d 410 (6th Cir. 2012), vacated, 134 S.
Ct. 2459 (2014) ...........................................
19
Fifth Third Bancorp v. Dudenhoeffer, 134 S.
Ct. 2459 (2014) ....................................... passim
Graham v. Fearon, 721 F. App’x 429 (6th
Cir. 2018) .................................................. 13, 23
Graham v. Fearon, No. 1:16 CV 2366, 2017
WL 1113358 (N.D. Ohio Mar. 24, 2017),
aff’d, 721 F. App’x 429 (6th Cir. 2018) ......
24
Jander v. Ret. Plans Comm. of IBM, 910
F.3d 620 (2d Cir. 2018), cert. granted, 139
S. Ct. 2667 (June 3, 2019) (No.
18-1165) .......................................... 9, 13, 22, 23
In re JPMorgan Chase & Co. ERISA Litig.,
No. 12 Civ. 04027 (GBD), 2016 WL
110521 (S.D.N.Y. Jan. 8, 2016), aff’d sub
nom. Loeza v. John Does 1-10, 659 F.
App’x 44 (2d Cir. 2016) ..............................
24
Kopp v. Klein, 894 F.3d 214 (5th Cir.
2018) .................................................. 12, 17, 20
Martone v. Robb, 902 F.3d 519 (5th Cir.
2018) ......................................................... 13, 23
Rinehart v. Lehman Bros. Holdings Inc.,
817 F.3d 56 (2d Cir. 2016) ..................... passim
Saumer v. Cliffs Nat. Res. Inc., 853 F.3d
855 (6th Cir. 2017) ....................... 12, 17, 20, 25
Singh v. RadioShack Corp., 882 F.3d 137
(5th Cir. 2018) .............................. 12, 17, 19, 20

vi
TABLE OF AUTHORITIES—continued

Page

Smith v. Delta Air Lines Inc., 619 F. App’x
874 (11th Cir. 2015) ........................... 12, 17, 20
Tibble v. Edison Int’l, 135 S. Ct. 1823
(2015) ..........................................................
20
Usenko v. MEMC LLC, 926 F.3d 468 (8th
Cir. 2019), petition for cert. filed, No. 19460 (U.S. Oct. 2, 2019) ................. 12, 17, 19, 20
Whitley v. BP, P.L.C., 838 F.3d 523 (5th
Cir. 2016) ....................................................
25
Wilson v. Edison Int’l, Inc., No. LA CV1509139 JAK (PJWx), 2016 WL 7469601
(C.D. Cal. July 6, 2016) ..............................
24
Wilson v. Fid. Mgmt. Tr. Co., 755 F. App’x
697 (9th Cir. 2019) ................................... 12, 17

INTRODUCTION
Petitioners alleged that fiduciaries of a 401(k) plan
should have concluded that the company’s own publicly traded stock was overvalued, and should have
publicly announced a prediction that the company
was destined for bankruptcy. Petitioners conceded
that this would have decimated the value of the
Plan’s and the participants’ company stock holdings.
The Second Circuit held that these claims were implausible and failed to state a claim. That decision
was consistent with this Court’s precedents and those
of every other circuit that has considered such claims.
As is common in these types of lawsuits, petitioners’ claims are premised on both publicly available
information and nonpublic information. In Fifth
Third Bancorp v. Dudenhoeffer, 134 S. Ct. 2459,
2471-73 (2014), and in Amgen Inc. v. Harris, 136 S.
Ct. 758 (2016) (per curiam), this Court set forth
stringent pleading standards that were designed to
weed out these types of meritless claims at the pleading stage.
For public information claims, this Court held that
“allegations that a fiduciary should have recognized
from publicly available information alone that the
market was over- or undervaluing the stock are implausible as a general rule, at least in the absence of
special circumstances.” Dudenhoeffer, 134 S. Ct. at
2471.
For nonpublic information claims, this Court held
that to state a claim, a complaint must plausibly allege (1) “an alternative action that the defendant
could have taken that would have been consistent
with the securities laws,” as ERISA’s fiduciary duties
do “not require a fiduciary to break the law,” id. at

2
2472; Amgen, 136 S. Ct. at 759 (quoting Dudenhoeffer, 134 S. Ct. at 2472), and (2) “that a prudent fiduciary in the same position ‘could not have concluded’
that the alternative action ‘would do more harm than
good.’” Amgen, 136 S. Ct. at 760 (quoting Dudenhoeffer, 134 S. Ct. at 2473).
Since Dudenhoeffer and Amgen, every circuit court
that has addressed the theories advanced by petitioners has affirmed dismissal. There is no circuit split on
any of the issues raised in the petition.
Indeed, the petition does not even ask this Court to
grant certiorari based on the current state of the law.
Instead, the petition asks this Court to (1) hold the
petition pending the Court’s consideration of Retirement Plans Committee of IBM v. Jander, No. 18-1165
(argued Nov. 6, 2019), and then (2) “dispose[] of [the
petition] accordingly.” Pet. 23. But there is no reason
to hold the petition, let alone grant certiorari, because Jander involves a fundamentally different type
of claim from the ones alleged here.
With respect to petitioners’ public information
claim, Jander is irrelevant. The claim in Jander is
based solely on nonpublic information, and the question presented there only concerns the “more harm
than good” standard that applies to nonpublic information claims; no question is presented in Jander relating to the public information pleading standard.
Thus, Jander will not have any impact on petitioners’
public information claim—this Court has already
held that such claims are implausible absent some
special circumstances that are not present here.
Jander also will have no impact on petitioners’
nonpublic information claim. This Court granted certiorari in Jander to consider whether the plaintiffs
satisfied the “more harm than good” pleading stand-

3
ard by alleging that an early disclosure of inside information alongside the SEC’s regular reporting process would have caused less damage than a later disclosure, and by relying on a generalized economic hypothesis that delaying the disclosure of negative inside information about a company results in a more
severe decrease in the company’s stock price—an issue that has divided the courts of appeal. But as the
Second Circuit (which decided Jander) concluded, petitioners made no such allegations here, so Jander is
inapposite.
Instead of the quite narrow and limited alternative
course of action the plaintiffs proposed in Jander, petitioners here proposed an extreme course of action
that would have guaranteed severe adverse consequences for the Plan and its participants. Petitioners
proposed that respondents should have made a public
pronouncement that they would be suspending further purchases and liquidating existing holdings of
SunEdison stock, as well as their reason for doing so,
namely, that they predicted that a SunEdison bankruptcy was certain. But a reasonable fiduciary could
have (and most likely would have) concluded that this
course of action would result in disaster. Petitioners
have acknowledged as much in their complaint,
which alleges that “once the [alleged] insider information was disclosed, the Plan and its participants
would suffer dramatic losses to their retirement savings.” Pet. App. 153a, ¶ 221. And, not surprisingly,
there is no circuit split on this point: the courts of appeals that have evaluated such proposed alternatives
have uniformly held that they fail to satisfy Dudenhoeffer and Amgen’s “more harm than good” standard.
Jander will not change any of this. If this Court affirms Jander, the law will be no different than it was

4
when the Second Circuit issued its opinion, which already considered and distinguished Jander. If, on the
other hand, this Court reverses Jander, that would be
all the more reason to deny certiorari, since Jander
will represent simply another unsuccessful attempt
to state an ERISA prudence claim relating to company stock.
Because the Second Circuit correctly applied this
Court’s precedent and is in accord with every other
court of appeals to have considered similar claims,
and because Jander will have no impact on the consistent precedent for such claims, this Court should
deny the petition.
COUNTERSTATEMENT OF THE CASE
A. Factual Background
SunEdison was a renewable energy development
company. Pet. App. 53a, ¶ 57. It financed, built, and
operated solar, wind, and hydro power plants around
the globe. Id. at 58a-59a, ¶ 64. SunEdison sponsored
a 401(k) plan for its employees called the SunEdison
Retirement Savings Plan (the “Plan”). Id. at 48a-49a,
¶¶ 39-45.
The Plan is an “individual account plan” or defined
contribution plan. It provides for acquisition and
holding of employer securities (known as an “eligible
individual account plan” (“EIAP”) under ERISA), and
is intended to qualify as a “cash or deferred profit
sharing plan under Section 401 of the Internal Revenue Code,” commonly known as a 401(k) plan. 2d Cir.
App. 343, 378, 381-82, §§ 1.4, 17.6(n), 18.1. Contributions to a participant’s account come from both the
participant and the employer. Pet. App. 49a, ¶ 44.
Participants self-direct the investment of their accounts among a broad range of investment options

5
offered under the Plan. 2d Cir. App. 382-83, § 18.2.
One of the many investment options available to participants was the SunEdison Stock Fund, a fund that,
as its name implies, invested in SunEdison common
stock. Pet. App. 49a-50a, 159a, ¶¶ 46, 239; 2d Cir.
App. 382-83, § 18.2. The Plan provides that participants are not required to invest any of their account
in the SunEdison Stock Fund, may not direct investment into the SunEdison Stock Fund that exceeds
15% of their account balance, and may not direct that
more than 15% of new contributions be invested in
the SunEdison Stock Fund. 2d Cir. App. 382-83,
§ 18.2.
Petitioners are all current or former Plan participants who allegedly invested in the SunEdison Stock
Fund. Pet. App. 37a-39a, ¶¶ 13-16. Petitioners have
named two groups as defendants: (1) the “Director
Defendants,” who are alleged to have served on the
SunEdison Board of Directors at various times during
the Relevant Period, and (2) the “Investment Committee Defendants,” who are alleged to have served
as members of the Plan’s Investment Committee. Id.
at 39a-46a, ¶¶ 17-32. The Investment Committee as
an entity is also named as a defendant. Id. at 44a,
¶ 26.
The Investment Committee’s duties, which are delineated in the Plan, include general responsibility
for the investment of Plan assets, the establishment
of Plan investment policies, and selection of Plan investment options. 2d Cir. App. 375-83, §§ 17-18. The
complaint alleges that the Director Defendants had
the power to appoint and remove individuals to serve
on the Investment Committee. Pet. App. 34a, 172a,
¶¶ 5, 283. However, other than the power to appoint
and remove members of the Investment Committee,
nothing in the Plan gives the Director Defendants

6
any authority or responsibility with respect to administration of the Company Stock Fund.
In late summer 2015 and continuing into 2016, a
confluence of events—including an industry-wide
downturn and constricting access to capital, among
other things—sent SunEdison’s stock into a downward spiral from which it did not recover. On April
21, 2016, SunEdison filed for bankruptcy to reorganize under Chapter 11. Pet. App. 139a, ¶ 205.
B. Procedural Background
1. Four ERISA class actions were filed in the Eastern District of Missouri against SunEdison and its
officers and directors. These actions were transferred
to the Southern District of New York as part of an
MDL created to manage all pending litigation relating to SunEdison.
Petitioners filed a consolidated complaint and
amended it several times, including after respondents
filed motions to dismiss identifying numerous pleading deficiencies. In re SunEdison, Inc. Sec. Litig., No.
1:16-mc-02744-PKC (S.D.N.Y.), ECF Nos. 23, 30
(Amended Consolidated Complaint and Second
Amended Consolidated Complaint). The operative
pleading is the Second Amended Consolidated Complaint (the “Complaint”). Pet. App. 31a-177a.
In Count I, petitioners alleged that respondents
acted imprudently under ERISA by continuing to offer the SunEdison Stock Fund as an investment option during the Relevant Period from July 20, 2015
until April 21, 2016. Pet. App. 50a, 164a-167a, ¶¶ 48,
255-266. This count asserted two theories of imprudence: one based on public information and one based
on nonpublic information.

7
The public information claim asserts that the Plan
fiduciaries should have concluded by the start of the
Relevant Period that SunEdison stock was overvalued or too risky. This theory alleged that the fiduciaries should have reached this conclusion based solely
on publicly available information such as analyst reports and internet articles. Pet. App. 150a-151a,
¶¶ 212-213.1
The nonpublic information claim asserts that certain senior officers who served as Plan fiduciaries
knew or should have known that the company was
destined for bankruptcy. Pet. App. 153a, ¶¶ 218-221;
2d Cir. Pet. Br. at 36-37. Petitioners assert that the
alternative action the fiduciaries should have taken
was to liquidate the Plan’s holdings and suspend additional Plan purchases in SunEdison stock, but only
“following proper disclosure” of the reasons for doing
so, i.e., a public announcement to the market of the
fiduciaries’ supposed knowledge of SunEdison’s “inevitable bankruptcy” and “certain worthlessness” at a
time when the stock was trading at over $31. Pet.
App. 64a-65a, 149a, 153a, 157a, ¶¶ 80-83, 209, 219,
232; 2d Cir. Pet. Br. at 31, 35-36.
In Count II, petitioners alleged that Defendants
breached their duty of loyalty, based on the same allegations that form the basis of Count I. Pet. App.
167a-172a, ¶¶ 267-279. In Count III, petitioners al-

1 Petitioners assert that the publicly available information
cited in the Complaint made clear that a SunEdison bankruptcy
was inevitable, but the Complaint makes clear that this is not
true. As of July 20, 2015, when petitioners argue the fiduciaries
should have acted on the public information, SunEdison stock
was trading at over $31 per share (Pet. App. 64a-65a, ¶¶ 80-83),
which means that the market did not view the public information as portending bankruptcy.

8
leged that the defendant fiduciaries breached a duty
to monitor each other. Id. at 172a-175a, ¶¶ 280-291.
2. The district court granted respondents’ motion
to dismiss. Pet. App. 29a-30a. The district court held
that the public information claim did not satisfy the
pleading requirements this Court set forth in Dudenhoeffer or Rinehart v. Lehman Bros. Holdings Inc.,
817 F.3d 56 (2d Cir. 2016) (per curiam), because petitioners failed to allege special circumstances that
would exempt their claim from Dudenhoeffer’s general rule that public information claims are implausible. Pet. App. 16a-19a. The district court explained
that allegations of “negative developments for the
Company, corresponding press reports and subsequent drops in share price” did not constitute “special
circumstances.” Id. at 18a-19a. To the contrary, the
district court noted that the relationship between the
negative press coverage and the stock price drops in
fact made the claim that “SunEdison shares were
riskier than the market’s assessment” less plausible,
because it showed that the market was processing the
negative information. Id. at 19a.
The district court also held that the nonpublic information claim was implausible. The district court
held that conclusory allegations that a “‘proper disclosure’ and subsequent freeze on purchases and liquidation of shares would not have done more harm
than good” were insufficient under Dudenhoeffer. Pet.
App. 21a-22a. The district court explained that petitioners’ proposed alternative course of action—i.e.,
disclosing to the market that the company was headed to bankruptcy before divesting the Plan’s shares of
company stock—would have triggered a negative
market reaction, and that the Complaint did not
plausibly allege that “any reasonable fiduciary would
have concluded that the benefits of plaintiffs’ pro-

9
posed actions would have been greater than the possible harms of a drop in stock price and loss of value
to a plan.” Id. at 23a.
The district court also rejected petitioners’ attempt
to circumvent Dudenhoeffer by alleging a failure to
monitor SunEdison stock, Pet. App. 24a-27a, and
held that Plaintiffs’ duty of loyalty claims failed for
the same reasons as their prudence claims. Id. at
27a-29a. The district court further held that petitioners’ claim that the directors were liable for failing to
monitor the actions of the Investment Committee and
take corrective actions failed because petitioners did
not plausibly allege that the Investment Committee
committed any underlying breach. Id. at 27a.
3. The Second Circuit affirmed. As to the public information claim, it concluded that the district court
correctly held that petitioners “did not allege any
‘special circumstances’ that would affect the reliability of the market price as a reflection of the value of
SunEdison shares.” Pet. App. 5a. Instead, the claim
was exactly the type that this Court has held is generally implausible. Id.
As to the nonpublic information claim, the Second
Circuit held that it also failed to satisfy Dudenhoeffer’s pleading standard. On appeal, petitioners relied
extensively on the Second Circuit’s decision in Jander
v. Retirement Plans Committee of IBM, 910 F.3d 620
(2d Cir. 2019), cert. granted, 139 S. Ct. 2667 (June 3,
2019) (No. 18-1165). Pet. App. 5a-6a. Petitioners argued that their claim was similar and that Jander
“provides a roadmap for analyzing” petitioners’
claims. 2d Cir. Pet. Reply Br. at 13. The Second Circuit, however, held that petitioners’ claims were significantly different from those in Jander because they
had never alleged that earlier disclosure of any inside

10
information would have caused less damage than a
later disclosure. Pet. App. 5a-6a.
The Second Circuit also rejected petitioners’ attempt to avoid Dudenhoeffer by framing their claims
as a failure to monitor, explaining that such a claim
“requires Defendants both to have improperly monitored investments and to have failed to remove imprudent ones.” Pet. App. 6a. “Plaintiffs failed to plausibly allege that it was imprudent for Defendants not
to remove any investments.” Id. The Second Circuit
also affirmed the district court’s dismissal of petitioners’ duty of loyalty and failure to monitor claims.2
REASONS FOR DENYING THE PETITION
The petition should not be held because the outcome of Jander will have no impact on the claims
that were asserted here. Instead, the petition should
be denied.
Petitioners’ request to hold the petition pending
Jander ignores the fact that Dudenhoeffer set forth
two separate pleading standards that apply to two
different types of ERISA imprudence claims. One
standard applies to claims alleging that fiduciaries
should have acted on the basis of public information,
and a separate standard applies to claims alleging
that fiduciaries should have acted on the basis of
nonpublic, i.e., inside, information.
With respect to the public information claim,
Jander plainly will have no impact. The question presented in Jander solely concerns the contours of the
“more harm than good” standard applicable to non-

2 The petition does not seek review of the Second Circuit’s affirmance of the dismissal of their “failure to monitor” claim or
the claims against the Director Defendants.

11
public information claims. Jander has nothing to do
with the public information standard, so the Court’s
opinion will not impact the ruling on this claim.
But even as to the nonpublic information claim,
Jander will not improve petitioners’ arguments because, as the Second Circuit noted, Jander involved a
different theory than the one petitioners advanced
here. The alternative action proposed in Jander concerns disclosure through the regular SEC reporting
process that, if made earlier, would have resulted in
less harm to the stock price. No such alternative is
alleged here. Instead, the alternative proposed here
involves a public prediction of bankruptcy that petitioners agree would have devastated the stock price
and severely harmed the Plan and its participants.
There is no allegation that this harm would have
been less severe than the harm caused by a delay in
disclosure, as was alleged in Jander. The Second Circuit already considered how Jander impacts this case,
and concluded it does not help petitioners for precisely this reason. Thus, even if the Court affirms in
Jander, it will not affect the ruling in this case; the
Second Circuit already held that the facts were different. And of course if this Court reverses Jander,
that won’t help petitioners either.
Courts of appeals have uniformly rejected the viability of a nonpublic information claim predicated on
the sort of extreme alternative proposed here. Unable
to identify a circuit split, the petition boils down to a
pure request for error correction: petitioners now dispute the notion that their proposed alternative action
would have caused a decline in SunEdison’s stock
price. But there is no error to correct on this score because the Complaint expressly conceded that their
proposed alternative would have resulted in “dramatic losses” to the Plan and its participants.

12
This Court made clear that the pleading standards
announced in Dudenhoeffer were intended to weed
out meritless imprudence claims, and that is exactly
what the Second Circuit did here. The petition should
be denied.
I. THERE IS NO REASON TO HOLD THE PETITION FOR PETITIONERS’ PUBLIC INFORMATION CLAIM BECAUSE JANDER
DOES NOT INVOLVE SUCH A CLAIM, AND
THE SECOND CIRCUIT FAITHFULLY APPLIED THIS COURT’S PRECEDENT.
A. The Pleading Standard Applicable To
Public Information Claims Is Not At Issue In Jander.
In Dudenhoeffer, this Court held that claims based
on public information “are implausible as a general
rule” and should be dismissed unless the plaintiff can
allege some extraordinary “special circumstance.” 134
S. Ct. at 2471-72. Since Dudenhoeffer, every court of
appeals to consider the issue, including the Second
Circuit here, has heeded this Court’s warning that
public information claims are generally implausible
by affirming dismissals of such claims. See Usenko v.
MEMC LLC, 926 F.3d 468, 473-74 (8th Cir. 2019),
petition for cert. filed, No. 19-460 (U.S. Oct. 2, 2019);
Wilson v. Fid. Mgmt. Tr. Co., 755 F. App’x 697, 698
(9th Cir. 2019); Kopp v. Klein, 894 F.3d 214, 219-21
(5th Cir. 2018) (per curiam); Singh v. RadioShack
Corp., 882 F.3d 137, 144-47 (5th Cir. 2018) (per curiam); Saumer v. Cliffs Nat. Res. Inc., 853 F.3d 855,
862-63 (6th Cir. 2017); Rinehart, 817 F.3d at 65-67;
Coburn v. Evercore Tr. Co., 844 F.3d 965, 969-73
(D.C. Cir. 2016); Smith v. Delta Air Lines Inc., 619 F.
App’x 874, 876 (11th Cir. 2015) (per curiam).

13
That pleading standard is not at issue in Jander.
Instead, Jander involves a different standard—the
“more harm than good” standard—applicable to nonpublic information claims. In Jander, the Second Circuit reversed a dismissal under that standard based
on generalized allegations that disclosure of nonpublic information was inevitable and later disclosure
would do more harm than good. Jander, 910 F.3d at
631. This holding created a split with the Fifth and
Sixth Circuits, both of which had held that nearly
identical allegations were implausible. See Martone
v. Robb, 902 F.3d 519, 526-27 (5th Cir. 2018); Graham v. Fearon, 721 F. App’x 429, 436 (6th Cir. 2018).
This Court granted certiorari in Jander to address
the following question: “Whether [Dudenhoeffer’s]
‘more harm than good’ pleading standard can be satisfied by generalized allegations that the harm of an
inevitable disclosure of an alleged fraud generally increases over time.” Petition for a Writ of Certiorari at
i, Ret. Plans Comm. of IBM v. Jander, No. 18-1165
(U.S. Mar. 4, 2019).
Petitioners’ contention that “the way this Court interprets Dudenhoeffer’s standards” in Jander “will
affect the outcome” of this claim (Pet. 23) is farfetched and wrong. Jander does not involve a public
information claim. Neither party in Jander has asked
the Court to address or alter the public information
claim pleading standard. Thus, the ultimate decision
in Jander will have no impact on petitioners’ public
information claim.

14
B. The Second Circuit Faithfully Applied
This Court’s Precedent And Is In Accord
With All Of The Courts Of Appeals That
Have Addressed Public Information
Claims.
Once petitioners’ reliance on Jander is rejected,
there is nothing left of the petition with respect to the
public information claim. There is no circuit split or
any other cert-worthy issue. All of the courts of appeals that have considered public information
claims—including the Second Circuit, which decided
Jander—have uniformly rejected the theories petitioners raised here. And petitioners’ arguments that
the Second Circuit’s opinion is somehow inconsistent
with Dudenhoeffer—a pure plea for error correction—
are meritless.
1. The Second Circuit Correctly Applied Dudenhoeffer’s “Special Circumstances” Requirement.
Petitioners first argue that Dudenhoeffer does not
require that a complaint allege any special circumstances to advance a public information claim—they
say the Second Circuit incorrectly “imposed” that requirement. Pet. 11. But the special circumstances requirement comes straight from Dudenhoeffer, which
recognized that public information claims like the one
alleged here are “implausible as a general rule, at
least in the absence of special circumstances.” 134 S.
Ct. at 2471.
In a claim based on public information, a plaintiff
alleges—always with the benefit of hindsight—that
ERISA fiduciaries should have recognized from publicly available information that a publicly traded
stock offered as an investment option to plan participants was overvalued or too risky. Such claims are

15
predicated on the notion that, if the plan fiduciaries
had reviewed certain public information, they could
have predicted that the stock price would decline in
the future and avoid any subsequent losses from the
decline. Id.
In Dudenhoeffer, the Court recognized the heads-Iwin, tails-you-lose nature of these claims. If a plan
fiduciary fears that continuing to invest in a publicly
traded stock might be imprudent, he may “find[] himself between a rock and a hard place.” Id. at 2470. If
the fiduciary continues to allow the stock as an investment option “and the stock goes down[,] he may
be sued for acting imprudently.” Id. But if the fiduciary halts the investment or forces participants to liquidate their holdings and the stock price goes up, “he
may be sued for disobeying the plan documents,” id.,
or “for missing the opportunity to benefit from good
performance.” Id. (quoting White v. Marshall & Ilsley
Corp., 714 F.3d 980, 987 (7th Cir. 2013), abrogated by
Dudenhoeffer, 134 S. Ct. at 2467).
This Court also recognized that a fiduciary’s
“fail[ure] to outsmart” the market is “not a sound basis for imposing liability,” and that “a fiduciary usually ‘is not imprudent to assume that a major stock
market . . . provides the best estimate of the value of
the stocks traded on it that is available to him.” Id. at
2471-72 (omission and alteration in original) (quoting
White, 714 F.3d at 992, and Summers v. State St.
Bank & Tr. Co., 453 F.3d 404, 408 (7th Cir. 2006)).
Dudenhoeffer embraced the efficient market theory,
which recognizes that the market processes information about publicly traded companies, and that information is reflected in the stock’s daily market
price. Thus, fiduciaries should not be expected to outperform the market “based solely on their analysis of
publicly available information.” Id. at 2471 (quoting

16
Halliburton Co. v. Erica P. John Fund, Inc., 134 S.
Ct. 2398, 2411 (2014)). Accordingly, fiduciaries “may,
as a general matter . . . prudently rely on the market
price.” Id.
To avoid subjecting fiduciaries to lawsuits for failing to predict future stock price movements, Dudenhoeffer set forth a strict pleading standard designed
to “weed[] out meritless claims” through motions under Rule 12. Id. This Court held that if an imprudence claim is premised solely on public information,
the claim is “implausible as a general rule,” unless a
plaintiff can plausibly allege some sort of “special circumstance” that would “affect[] the reliability of the
market price as ‘an unbiased assessment of the security’s value in light of all public information.’” Id. at
2471-72 (quoting Halliburton Co., 134 S. Ct. at 2411).
This case is a textbook example of a claim that
should be weeded out. The public information claim
here boils down to an argument that the plan fiduciaries should have divined, based on the same public
information available to every investor in the market,
that a SunEdison bankruptcy was a certainty. In other words, petitioners are claiming that plan fiduciaries should have outsmarted the market and should
have been required to predict the future.
While the Complaint treats each adverse event reported to the public as somehow signaling that SunEdison’s bankruptcy months later was inevitable, it
does so only with the benefit of hindsight. After all, if
bankruptcy was certain and obvious, as petitioners
argue, then the market would have incorporated that
information and the stock price would have been at or
near zero. But those were not the facts alleged—
SunEdison stock was trading at over $31 at the start
of the Relevant Period. Pet. App. 65a, ¶ 83. The market did not believe that the publicly available infor-

17
mation indicated that SunEdison was destined for
bankruptcy. Thus, petitioners are trying to fault respondents for not outsmarting the market by being
the only ones to predict that SunEdison would go
bankrupt.
Petitioners thus encouraged the courts below to
make the exact mistake this Court warned about in
Dudenhoeffer: turning ERISA fiduciaries into market
soothsayers. The district court and the Second Circuit
properly refused to take the bait. The Second Circuit
recognized petitioners’ claim for what it was: an attempt to fault respondents for failing to predict the
future based on publicly available information. Pet.
App. 5a. The Second Circuit also considered whether
the Complaint alleged any special circumstances that
would suggest that the market was unreliable. Id.
This is exactly the analysis that Dudenhoeffer requires.
The Second Circuit is not alone in enforcing the
special circumstances requirement. Since Dudenhoeffer, every court of appeals that has addressed virtually identical public information claims has affirmed
dismissal for failure to allege special circumstances.
See Usenko, 926 F.3d at 473-74; Wilson, 755 F. App’x
at 698; Singh, 882 F.3d at 146-47; Kopp, 894 F.3d at
220; Rinehart, 817 F.3d at 66-67; Saumer, 853 F.3d at
862-63; Coburn, 844 F.3d at 969-70; Smith, 619 F.
App’x at 876.
Petitioners argue that requiring a plaintiff to allege
special circumstances is somehow inconsistent with
this Court’s observation in Dudenhoeffer that courts
should perform “careful, context-sensitive scrutiny of
a complaint’s allegations.” Pet. 12 (quoting Dudenhoeffer, 134 S. Ct. at 2470). But that argument
amounts to a claim that Dudenhoeffer was somehow
internally inconsistent, which is incorrect. Nobody

18
disputes the unremarkable principle that courts
should carefully review a complaint when evaluating
a motion to dismiss. But as applied to ERISA imprudence claims, that “careful, context-sensitive scrutiny” requires a court to evaluate (1) whether a claim is
premised on public information and, if so, (2) whether
the complaint alleges special circumstances that
would warrant a departure from the general rule of
implausibility. The lower courts considered and correctly resolved both issues. This was an easy case.
2. Petitioners Cannot Evade Dudenhoeffer By Characterizing Their
Claim As An “Excessive Risk”
Claim.
Petitioners argue that Dudenhoeffer is inapplicable
by characterizing their claim as one alleging that the
stock was “excessively risky,” as opposed to overvalued. Pet. 8, 13-17. According to petitioners, Dudenhoeffer’s “special circumstances” requirement applies
only where a plaintiff asserts “a claim for overvaluation,” id. at 13, and not where a plaintiff asserts an
“excessive-riskiness claim,” id. at 16.
This argument fails for several reasons. For starters, while petitioners assert that their claim “does not
turn on the stock’s market price,” Pet. 11, they have
conceded that their claim is based on the stock’s market price and is, ultimately, an overvaluation claim,
regardless of the label they find most convenient
when trying to evade Dudenhoeffer. The Complaint
alleges that the stock was overvalued and that a drop
in stock price was “inevitable.” Pet. App. 152a-153a,
¶ 217. And in their Second Circuit brief, petitioners
specifically argued that their claim is that the fiduciaries should have known that SunEdison’s “‘true value’ . . . was not the current market price assigned to
it”—a classic overvaluation claim—and should have

19
predicted “that SunEdison was heading to bankruptcy and certain [to be] worthless[].” 2d Cir. Pet. Br. at
31. Petitioners acknowledge that overvaluation
claims are subject to Dudenhoeffer’s special circumstances requirement. Pet. 13.
And in any event, even if petitioners had cast their
Complaint solely in terms of “excessive risk,” that is a
distinction without a difference. Dudenhoeffer itself
addressed a claim that the stock at issue was excessively risky. The Sixth Circuit had held that the complaint stated a claim precisely because it alleged that
defendants “were aware of the risks” that ultimately
led to a fall in the stock’s share price, and sufficiently
alleged that “such risks made [the stock] an imprudent investment.” Dudenhoeffer v. Fifth Third Bancorp, 692 F.3d 410, 419-20 (6th Cir. 2012) (emphasis
added), vacated, 134 S. Ct. 2459 (2014). But this
Court reversed and vacated the Sixth Circuit opinion,
and expressly noted the complaint’s allegation
“that . . . the fiduciaries knew or should have known
that Fifth Third’s stock was overvalued and excessively risky” and quoted the Sixth Circuit’s discussion of
the allegations about the “risks of such investments.”
Dudenhoeffer, 134 S. Ct. at 2464, 2472 (emphasis
added). If this Court did not intend for Dudenhoeffer
to apply to excessive risk claims, it would not have
vacated the Sixth Circuit’s ruling.
There is no circuit split on this issue. All of the
courts of appeals to have considered this argument
have held that any claimed distinction between overvaluation and excessive risk is “illusory” and have
applied the standard to claims alleging excessive risk.
Rinehart, 817 F.3d at 65-66; Usenko, 926 F.3d at 47274; Coburn, 844 F.3d at 970-71; Singh, 882 F.3d at

20
145-46; Kopp, 894 F.3d at 220; Saumer, 853 F.3d at
862.3
II. THE NONPUBLIC INFORMATION CLAIM
PROVIDES NO REASON TO HOLD THE
PETITION BECAUSE THE CLAIMED ALTERNATIVE IN JANDER WAS DIFFERENT
THAN THE ONE PETITIONERS ADVANCE.
As for the nonpublic information claim, petitioners’
request to hold their petition pending Jander fares no
better. While Jander involves a nonpublic information claim, the parallels with this case end there.
Jander will not impact this case because it concerns a
proposed alternative action and theory that petitioners did not plead here. Even if Jander is affirmed, the
outcome here won’t change because the Second Circuit already determined that the facts alleged are different than those in Jander.
3 Petitioners have abandoned their theory raised below that
they could evade Dudenhoeffer by alleging the fiduciaries
breached a “duty to monitor” the SunEdison stock. Petitioners
based this theory on this Court’s decision in Tibble v. Edison
International, 135 S. Ct. 1823, 1828-29 (2015), but in Tibble,
this Court recognized that a failure to monitor, alone, is not sufficient to establish liability. Tibble held that “plaintiff may allege that a fiduciary breached the duty of prudence by failing to
properly monitor investments and remove imprudent ones.” Id.
(emphasis added). And, once again, there is no circuit split on
this issue. Courts of appeals have uniformly held that, even assuming a failure to monitor, a plaintiff still must plausibly allege that the stock was imprudent and therefore additional monitoring would have prevented retention of that investment option. And whether a complaint plausibly alleges that a publiclytraded stock was imprudent is governed by Dudenhoeffer’s
pleading standard. Pet. App. 6a; see also Usenko, 926 F.3d at
474-75; Saumer, 853 F.3d at 863; Singh, 882 F.3d at 147; Kopp,
894 F.3d at 220-21; Smith, 619 F. App’x at 875-76; Rinehart, 817
F.3d at 66 n.3. As discussed above, petitioners here failed to satisfy those requirements.

21
In Dudenhoeffer, this Court recognized that some
ERISA imprudence claims are based on nonpublic information. See 134 S. Ct. at 2472. In such cases, a
plaintiff alleges that plan fiduciaries, which may include senior company officers, possessed adverse material inside information suggesting that the company’s own stock (offered as a plan investment option)
was over-valued. Such claims assert that the plan fiduciaries should have acted on the inside information, e.g., by liquidating the plan’s stock holdings
or suspending future purchases.
This Court recognized an obvious problem with
these claims: the securities laws prohibit acting on
insider information. ERISA’s duty of prudence does
not permit a plan fiduciary to break the law, and a
plan fiduciary who possesses material, nonpublic information is bound by insider trading laws, so selling
a plan’s shares based on such information is not an
option. Id. at 2472-73. In addition, this Court recognized that “stopping purchases—which the market
might take as a sign that insider fiduciaries viewed
the employer’s stock as a bad investment—or publicly
disclosing negative information would do more harm
than good to the fund by causing a drop in the stock
price and a concomitant drop in the value of the stock
already held by the fund,” thus harming the very participants the fiduciary is supposed to protect. Id. at
2473.
To address these concerns, Dudenhoeffer set forth a
separate pleading standard applicable to nonpublic
information claims, which this Court reaffirmed in
Amgen, 136 S. Ct. 758. To assert a viable nonpublic
information claim, a complaint must plausibly allege
(1) “an alternative action that the defendant could
have taken that would have been consistent with the
securities laws,” as ERISA’s fiduciary duties do “not

22
require a fiduciary to break the law,” id. at 759 (quoting Dudenhoeffer, 134 S. Ct. at 2472); Dudenhoeffer,
134 S. Ct. at 2472, and (2) “that a prudent fiduciary
in the same position ‘could not have concluded’ that
the alternative action ‘would do more harm than
good,’” Amgen, 136 S. Ct. at 760 (quoting Dudenhoeffer, 134 S. Ct. at 2473).
Jander concerns the “more harm than good” element. In Jander, plaintiffs alleged that a business
unit that IBM had been trying to sell was overvalued
as a result of accounting violations, and that the defendant fiduciaries knew of this inside information.
910 F.3d at 622-23. On appeal, plaintiffs narrowed
their proposed alternative action to just one: that the
fiduciaries should have made earlier corrective disclosure of the inside information conducted alongside
the regular SEC reporting process. Id. at 628. Plaintiffs argued that because IBM was trying to sell the
business, the buyer was sure to discover the violations in due diligence, so it was inevitable that the
information would eventually come out. Id. at 630.
Thus, under plaintiffs’ theory, the only issue was
whether the information should have been disclosed
sooner rather than later.
Plaintiffs in Jander acknowledged that earlier disclosure of the inside information could negatively impact the stock price, but they cited “economic analyses that show that reputational harm is a common
result of fraud and grows the longer the fraud is concealed, translating into larger stock drops.” Id. at
629.
The Second Circuit held in Jander that given that
it was inevitable that the information would be disclosed sooner or later, and in light of plaintiffs’ generalized allegation that delaying disclosure increases
the severity of a market correction, the choice was

23
simply between one unattractive course of action
(early disclosure with a slight decrease in stock price)
and a much worse course of action (delayed disclosure
and greater decrease in stock price). Id. at 630-31.
The Second Circuit held that this was enough to satisfy the “more harm than good” standard: any fiduciary would have concluded that the first option would
have been better, because it would have resulted in a
smaller decrease in the stock price. Id. In so holding,
Jander created a circuit split with the Fifth and Sixth
Circuits, which had rejected similar theories. Martone, 902 F.3d at 526-27; Graham, 721 F. App’x at
436.
In light of the circuit split, this Court granted certiorari in Jander on the following question: “Whether
[Dudenhoeffer’s] ‘more harm than good’ pleading
standard can be satisfied by generalized allegations
that the harm of an inevitable disclosure of an alleged fraud generally increases over time.” Petition
for a Writ of Certiorari at i, Ret. Plans Comm. of IBM
v. Jander, No. 18-1165 (U.S. Mar. 4, 2019).
The answer to that question does not matter in this
case because petitioners have not made such allegations. Jander turned on unique allegations that the
act of delaying an inevitable disclosure of adverse information increased harm to plan participants. Thus,
if Jander is affirmed, it will at most mean that an
ERISA plaintiff may be able to state a claim based on
nonpublic information by plausibly identifying a disclosure that both (i) is inevitable, and (ii) becomes
more harmful if delayed. That standard would not be
met here. There is no plausible allegation that SunEdison’s bankruptcy was inevitable as of the time petitioners insist that the plan fiduciaries should have
announced as much to the world. And, regardless, petitioners have not alleged that making a premature

24
public forecast of SunEdison’s bankruptcy would have
lessened the harm to Plan participants. To the contrary, petitioners’ proposed alternative would have
devastated the stock price, as petitioners conceded
below.
Specifically, petitioners asserted below that information regarding SunEdison’s “liquidity challenge”
should have led respondents to conclude that SunEdison’s eventual bankruptcy almost a year later was
“inevitable” and that “no matter what happened, the
[SunEdison] Stock would not rebound” and would
“never recuperate.” 2d Cir. Pet. Br. at 35-37, 44. In
their petition, respondents have doubled down on this
theory: they assert that respondents should have
known that “there was no solution,” that SunEdison’s
demise was “certain,” and they knew or should have
known, months ahead of time, that SunEdison “would
eventually have to file for bankruptcy.” Pet. 18.
According to petitioners, respondents, armed with
such knowledge, should have publicly disclosed, as
early as July 2015, that SunEdison’s bankruptcy was
a foregone conclusion and that the stock price would
never rebound.4 And then, after publicly predicting
4 Under the securities laws, fiduciaries cannot use inside information to sell shares or suspend trading without advanced
disclosure of the reasons for doing so. See In re JPMorgan Chase
& Co. ERISA Litig., No. 12 Civ. 04027 (GBD), 2016 WL 110521,
at *3 (S.D.N.Y. Jan. 8, 2016), aff’d sub nom. Loeza v. John Does
1-10, 659 F. App’x 44 (2d Cir. 2016); Wilson v. Edison Int’l, Inc.,
No. LA CV15-09139 JAK (PJWx), 2016 WL 7469601, at *9 n.5
(C.D. Cal. July 6, 2016) (SEC’s position is that “[s]uch a suspension of trading must be promptly and accurately disclosed in a
Form 8-K—including the reason for the suspension”); Graham v.
Fearon, No. 1:16 CV 2366, 2017 WL 1113358, at *4 n.4 (N.D.
Ohio Mar. 24, 2017), aff’d, 721 F. App’x 429 (6th Cir. 2018). Indeed, the Complaint acknowledges that any suspension could
only occur “following proper disclosure.” Pet. App. 149a, ¶ 209.

25
bankruptcy and announcing that the Plan would
therefore be suspending further purchases of SunEdison stock, petitioners proposed that respondents
should have forced participants to sell their holdings
in the stock. Pet. App. 149a, 153a, 157a, ¶¶ 209, 219,
232.
Putting aside that petitioners’ theory would require
fiduciaries to become market prognosticators—
predicting the future market prospects of the company—it suffers from an even more fundamental flaw.
This Court, the Second Circuit, and other circuits all
have recognized the glaring problem with this course
of action: it is certain to cause the stock price to
plummet. As a result, a fiduciary could (and would)
quite reasonably conclude that such actions will harm
the plan participants who hold company stock by decreasing the value of their holdings, so this proposed
plan of action does not satisfy the “more harm than
good” pleading standard. See Dudenhoeffer, 134 S. Ct.
at 2473; Rinehart, 817 F.3d at 68 (divesting or freezing further purchases of company stock “could have
had dire consequences”); Whitley v. BP, P.L.C., 838
F.3d 523, 529 (5th Cir. 2016) (disclosure followed by
freezing purchases “would likely lower the stock
price” and thus “do more harm than good”); Saumer,
853 F.3d at 863-65 (“disclosing inside information
and stopping additional ESOP contributions” would
be an “extreme action” and defendants “could have
concluded that divulging inside information . . . would
have collapsed [the company]’s stock price, hurting
participants already invested in the [plan]”). As the
Sixth Circuit has explained, such action “‘is a clarion
call to the investment world that the [fiduciary]
lacked confidence in the value of its stock, and could
have a catastrophic effect on [the] stock price,’ severely harming plan members.” Saumer, 853 F.3d at 860

26
(alterations in original) (quoting In re Comput. Scis.
Corp. ERISA Litig., 635 F. Supp. 2d 1128, 1136 (C.D.
Cal. 2009), aff’d sub nom. Quan v. Comput. Scis.
Corp., 623 F.3d 870 (9th Cir. 2010), abrogated by
Dudenhoeffer, 134 S. Ct. at 2467).
The harm to the Plan and its participants here is
even more certain and severe under petitioners’ theory of the case, which would have required disclosure
of alleged inside information that supposedly made it
obvious that SunEdison’s bankruptcy was a fait accompli. Indeed, it is difficult to imagine a course of
action more harmful to Plan participants than the
fiduciaries announcing to the world a prediction that
SunEdison was doomed or would eventually go bankrupt; this would amount to a self-fulling prophecy,
sealing the company’s fate, sending the stock price to
zero or close to it, and decimating the value of participant’s holdings in the stock before they were sold.
Petitioners now argue that their proposed alternative would not have resulted in a “significant disruption in [the] stock price,” Pet. 18-19, but common
sense says otherwise: company insiders telling the
market that they believe their company will be going
bankrupt, and are therefore suspending trading and
liquidating the Plan’s holdings in the stock, would be
the death of the stock. Petitioners cannot seriously
contend that a prudent fiduciary “could not have concluded” that making this sort of public prediction
would do more harm than good, and that means they
cannot satisfy Dudenhoeffer and Amgen.
Indeed, petitioners’ “no-impact” argument is
squarely contradicted by the Complaint, which concedes that “once the [alleged] insider information was
disclosed, the Plan and its participants would suffer
dramatic losses to their retirement savings.” Pet.

27
App. 153a, ¶ 221.5 And, importantly, unlike Jander,
petitioners did not allege that an earlier disclosure of
SunEdison’s financial problems might have caused
less damage than a later disclosure. Thus, they could
not plausibly allege that a reasonable fiduciary could
not have concluded that petitioners’ proposal would
do more harm than good to the fund.6

Petitioners assert that three other companies “ha[ve] done
what the defendants here could have done” and did not experience any significant disruption in their stock price. Pet. 18-19.
But the actions taken by those companies are not remotely analogous to the actions petitioners proposed here. None involved an
immediate suspending of trading preceded by a disclosure of
negative insider information (let alone a prediction of bankruptcy). According to the Form 11-Ks cited in the Complaint, those
companies merely effectuated a plan amendment that discontinued (many months later) their stock funds as an investment
option, and none of the 11-Ks provide any description of the reasons for discontinuing the stock funds. 2d Cir. App. 407, 426,
464. This means that none of these other companies’ actions
could have resulted from a suspension of trading implemented
by plan fiduciaries in response to material inside information.
5

6 Petitioners suggest that their proposed alternative would
not have caused a stock price decline because negative publicity
about SunEdison “had already destroyed investor confidence.”
Pet. 18. But this argument fails for several reasons. First, it contradicts the Complaint’s allegation that “once the [alleged] insider information was disclosed, the Plan and its participants
would suffer dramatic losses to their retirement savings.” Pet.
App. 153a, ¶ 221. Second, it contradicts the Complaint’s allegation that the SunEdison stock price was trading at over $31 at
the start of the Relevant Period (Pet. App. 65a, ¶¶ 82-83), which
would not be the case if investors had no confidence in SunEdison. Third, even if it were accurate, petitioners’ argument would
prove too much. If the stock price had already adjusted downward to reflect the “negative publicity,” then the stock was not
overvalued, and whatever remaining nonpublic information respondents possessed was not material.

28
Petitioners claim the Second Circuit’s real sin was
not undertaking a “case-specific analysis required by
Dudenhoeffer,” but they never explain what they
mean or how this would help them. Pet. 17. And they
contradict the argument when they assert (in the
same sentence) that the Second Circuit “relies on a
fact-by-fact comparison with different cases,” id.—the
prototypical “case-specific analysis.” Comparing alleged facts with those in other decided cases is exactly how courts perform a case specific analysis.
Petitioners also chide the Second Circuit for analyzing “whether the facts of this case were the same as
the facts in Jander.” Pet. 19. But again, courts routinely distinguish and analogize precedential case
law, so the Second Circuit’s consideration of its prior
authority is neither surprising nor troubling. Moreover, it was petitioners who relied heavily on Jander
below, citing it twenty-nine times in their Second
Circuit reply brief and asserting that Jander “provides a roadmap for analyzing Plaintiffs’” allegations.
2d Cir. Pet. Reply Br. at 13. Given that petitioners
invited the Second Circuit to compare their case to
Jander, it was plainly appropriate for the court to do
so.
Indeed, the Second Circuit’s analysis of Jander
shows that it engaged in a contextual, case-specific
analysis: it looked at the allegations and legal theories petitioners asserted, then compared those allegations and theories to Jander and Rinehart, its two
prior opinions applying this Court’s pleading standard in Dudenhoeffer and Amgen. Pet. App. 5a-6a.
In sum, petitioners’ hope that this Court’s resolution of Jander will somehow provide them a lifeline
for their nonpublic information claim is unfounded. If
this Court reverses Jander and concludes that the
complaint failed to state a nonpublic information

29
claim, then Jander obviously will be of no help to petitioners; Jander will simply be the latest in an uninterrupted line of cases rejecting nonpublic information claims.
And if this Court were to affirm Jander, that won’t
help petitioners either, since the Second Circuit already considered Jander and distinguished it from
the allegations here. Petitioners’ assertion that this
Court’s resolution of Jander “will affect the outcome
of this case” is, simply, incorrect.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied, and the Court should decline petitioners’ invitation to hold this petition pending the outcome in Jander.
Respectfully submitted,
SARAH A. HEMMENDINGER
SIDLEY AUSTIN LLP
555 California Street
Suite 2000
San Francisco, CA 94104
(415) 772-1200

MARK B. BLOCKER*
CHRISTOPHER K. MEYER
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000
mblocker@sidley.com

Counsel for Respondents Ahmad Chatila, Emmanuel
Hernandez, Antonio R. Alvarez, Clayton C. Daley, Jr.,
Georganne C. Proctor, Steven V. Tesoriere, James B.
Williams, Randy H. Zwirn, The SunEdison Retirement
Savings Plan Investment Committee, Brian Wuebbels,
Phelps Morris, Matthew Herzberg, Matt Martin, and
James Welsh
December 6, 2019

*Counsel of Record

